No. ______
In the

Supreme Court of the United States
__________________

KYLE RAY HURST, Personal Representative of the
Estate of Andrew James Hurst and on Behalf
of the Estate of Andrew James Hurst Deceased and
the Statutory Wrongful Death Survivor of Andrew
James Hurst,
Petitioner,
v.
UNITED STATES OF AMERICA, Tony Lourey, Acting by
and Through the Department of Agriculture US
Forest Service,
Respondent.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

__________________

PETITION FOR A WRIT OF CERTIORARI
__________________
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(o) 407-388-1900
robertsirianni@brownstonelaw.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
Whether the Eleventh Circuit wrongfully absolved
Respondent of liability when it determined that Moore
Lake was not an “area” where a fee was charged, or a
part of an area used for commercial purposes.

ii
PARTIES TO THE PROCEEDINGS
The parties to the proceedings before this Court are
as follows:
Kyle Ray Hurst, Personal Representative of the
Estate of Andrew James Hurst and on Behalf of the
Estate of Andrew James Hurst Deceased and the
Statutory Wrongful Death Survivor of Andrew James
Hurst, Petitioner.
United States of America, Tony Lourey, Acting by
and Through the Department of Agriculture US Forest
Service, Respondent.
LIST OF PROCEEDINGS
ELEVENTH CIRCUIT COURT OF APPEALS
Docket No. 18-12574
KYLE RAY HURST, et al. v. UNITED STATES OF
AMERICA.
Case No. 4:17-cv-00025-RH-CAS
Judgment dated 8/13/19 District Court AFFIRMED;
UNITED STATES DISTRICT COURT, NORTHERN
DISTRICT OF FLORIDA – TALLAHASSEE
Case No. 4:17-cv-00025-RH-CAS
KYLE RAY HURST, et al. v. UNITED STATES OF
AMERICA.
Judgment dated 5/30/18 Government motion to dismiss
for lack of subject-matter jurisdiction or alternatively
for summary judgment are GRANTED.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
LIST OF PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION IN THIS COURT. . . . 1
STATUTORY PROVISIONS INVOLVED . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
A. Factual Basis for the Writ. . . . . . . . . . . . . . . . 3
REASONS TO GRANT THIS PETITION. . . . . . . . . 7
I. THE DECISION OF THE UNITED STATES
COURT OF APPEALS INCORRECTLY
DISMISSED PETITIONER’S APPEAL AT
SUMMARY JUDGMENT AND IMPROPERLY
APPLIED THE FACTS TO ESTABLISHED
FEDERAL JURISPRUDENCE . . . . . . . . . . . . . . 7
A. The Court of Appeals incorrectly held that
Moore Lake is not an “area” where a fee was
charged as considered by FRUS. . . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

iv
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(August 13, 2019) . . . . . . . . . . . . . App. 1
Appendix B Order of Dismissal and Judgment in
the United States District Court for
the Northern District of Florida
Tallahassee Division
(May 30, 2018). . . . . . . . . . . . . . . App. 13
Appendix C U.S. Department of Agriculture Forest
Service Special Use Permit for
Noncommercial Group Use for
Rainbow Family Gathering . . . . App. 28

v
TABLE OF AUTHORITIES
CASES
Abdin v. Fischer,
374 So. 2d 1379 (Fla. 1979) . . . . . . . . . . . . . . . 8, 9
Cox v. Community Services Dep’t,
543 So. 2d 297 (Fla. 5th DCA 1989) . . . . . . . . . . . 8
Fisher v. United States,
2019 U.S. Dist. LEXIS 135997,
2019 WL 3802461
(M.D. Fla. August 13, 2019) . . . . . . . . . . . . . . . . 12
Goodman v. Juniper Springs Canoe
Rentals & Recreation, Inc.,
983 F. Supp. 1384 (M.D. Fla. 1997) . . . . . 9, 11, 12
Kleer v. United States,
761 F.2d 1492 (11th Cir. 1985). . . . . . . . . . . . . 8, 9
Pensacola v. Stamm,
448 So. 2d 39 (Fla. 1st DCA 1984) . . . . . . . . . . . . 7
STATUTES AND REGULATIONS
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1346(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . 8
60 F.R. 42428-01. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Fla. Stat. § 327.251 . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Fla. Stat. § 375.251 . . . . . . . . . . . . . . . . . . . . . passim

1
PETITION FOR A WRIT OF CERTIORARI
The Petitioner respectfully requests that a Writ of
Certiorari be issued to review the Denial of his appeal
to the United States Court of Appeals for the Eleventh
Circuit on August 13, 2019.
OPINIONS BELOW
The August 13, 2019 Order of the United States
Court of Appeals for the Eleventh Circuit affirming the
District Court’s judgment, which unpublished decision
is herein sought to be reviewed, Hurst v. United States,
2019 U.S. App. LEXIS 24061 (11th Cir. 2019) is
reproduced at App. 1. The May 30, 2018 Order and
Judgment in the United States District Court,
Northern District of Florida, Tallahassee is reproduced
at App. 13.
BASIS FOR JURISDICTION IN THIS COURT
The August 13, 2019 Order of the United States
Court of Appeals for the Eleventh Circuit affirming the
District Court’s judgment, which decision is herein
sought to be reviewed Hurst v. United States, 2019 U.S.
App. LEXIS 24061 (11th Cir. 2019).
The statutory provision believed to confer on this
Court jurisdiction to review on a writ of certiorari the
judgment or order in question is 28 U.S.C. § 1254(1).

2
STATUTORY PROVISION INVOLVED
Fla. Stat. § 375.251(1).
Limitation on liability of persons making
available to public certain areas for recreational
purposes without charge.—
(1) The purpose of this section is to encourage
persons to make land, water areas, and park
areas available to the public for outdoor
recreational purposes by limiting their liability
to persons using these areas and to third
persons who may be damaged by the acts or
omissions of persons using these areas.
(2)(a) An owner or lessee who provides the public
with an area for outdoor recreational purposes
owes no duty of care to keep that area safe for
entry or use by others, or to give warning to
persons entering or going on that area of any
hazardous conditions, structures, or activities on
the area. An owner or lessee who provides the
public with an area for outdoor recreational
purposes:
1. Is not presumed to extend any assurance
that the area is safe for any purpose;
2. Does not incur any duty of care toward a
person who goes on the area; or
3. Is not liable or responsible for any injury to
persons or property caused by the act or
omission of a person who goes on the area.

3
STATEMENT OF THE CASE
This Petition brings a challenge to the Court of
Appeals’ failure to appropriately apply federal and
state law to the facts of this case. The Petition’s central
argument is that the Eleventh Circuit applied the
incorrect set of facts when it affirmed the District
Court’s position that the matters involving the
wrongful death of Andrew Hurst. First, USFS applied
a fee for access to Silver Lake which is the same “area”
permitted by the USS to Rainbow Family of Living
Light in order to host a gathering in the Apalachicola
National Forest. Therefore, the Florida law the lower
court deferred to, per the FTCA, does not bar
Petitioner’s claim. Second, Moore Lake and Silver Lake
are the same “area” for purposes of Fla. Stat. § 375.251.
Subsequently, Petitioner’s claim should be allowed to
proceed for adjudication on the merits.
A. Factual Basis for the Writ.
Andrew Hurst died at age sixteen from several
drug-induced seizures while attending an outdoor
gathering on public land approved by the United States
Forest Service (“USFS”).
On March 1, 2013 the USFS provided the Rainbow
Family of Living Light (“the Rainbows”) a permit to
host one the Rainbow’s annual gatherings in the
Apalachicola National Forest (“the Forest). The
gathering took place on March 9, 2013 at Moore Lake,
which is roughly ten miles west of Tallahassee, Florida.
Importantly, the Rainbows are a very well-known
decentralized group of counterculture members that
gather in outdoor public spaces. In fact, the Rainbows

4
are the largest such group nationally. Supposedly, the
Rainbows aim to promote peace and love.
Unfortunately, and perhaps unsurprisingly, illegal
drug use is rampant at the gatherings. So much so that
the USFS have cooperated with the Rainbows to
develop and implement plans to enforce local, state,
and national laws and mitigate criminal activity. See
60 F.R. 42428-01.
The permit which was issued to the Rainbows
included a provision which states that the permit
holder “shall comply with all federal, state, county, and
municipal laws, ordinances, and regulations which are
applicable to the area or operations covered by the
permit.” Appx. C. When issuing the permit, the USFS
turned to the criteria listed in the USFS manual (“the
Manual”). Appx. C. In addition, according to the
Special Permit issued by the USFS, the planned
activity was for camping only at the Moore Lake and
Dog Lake areas. An Exhibit was attached identifying
the area at Moore Lake that was permitted by the
USFS. In this regard, the Permit states: “Rainbow
Family C/O Greg Beck (the holder) is hereby
authorized to use, subject to the terms of this permit,
National Forest Service lands described as Moore and
Dog Lake, as shown in attached Exhibit A. Appx. C.
This permit covers approximately 3 square miles.” Id.
The USFS manual requires a law enforcement plan
for gatherings such as the one giving rise to this action.
Additionally, the Manual requires the USFS to patrol
national forests and to cooperate with local police in
enforcing applicable laws on USFS land.

5
Andrew Hurst arrived with several of his
acquaintances on March 9, 2013. Soon thereafter,
Andrew Hurst suffered his first seizure. Contrary to
the USFS manual, there was no one Andrew could turn
to in his time of desperation. There was no medical
care, law enforcement, nor security personnel at the
gathering.
Despite Andrew’s lonely yet valiant efforts, the
seizures persisted for the next several hours.
Tragically, Andrew passed away in his vehicle.
An autopsy found that Andrew’s seizure and death
were caused by an illegal drug, 2C-C-NBOME
(“NBOME”). NBOME is commonly distributed and
used whenever the Rainbows gatherings.
The district court dismissed Petitioner’s claims
under the Florida Recreational Use Statute (“FRUS”)
at summary judgment. App. B. Petitioner then
appealed to the Eleventh Circuit which ultimately
found in favor of Respondent and affirmed the district
court’s rulings, noting:
“Hurst has failed to carry his burden of showing
that a ‘private individual’ or a “private person”
would be liable under the circumstances of this
case (i.e., that the FRUS would not apply to
shield a private landowner from liability), we
conclude that the United States has not waived
its traditional all-encompassing immunity, and
thus cannot be held liable in tort under the
FTCA.”
App. A.

6
In its determination the Eleventh Circuit made
several findings.
1. Although there are designated recreation
areas within the Apalachicola National
Forest that require guests to pay a fee and
from which the government derives revenue,
Moore Lake and the area surrounding it is
not such an area.
2. The closest recreation area inside the
Apalachicola National Forest that charges a
fee and generates government revenue is
Silver Lake, which is located approximately
three to four miles away from the Moore Lake
area.
3. Hurst has not pointed to—and we are
unaware of—any Florida authority
indicating that, when an area of property is
used for more than one purpose, at least one
of which clearly qualifies as an “outdoor
recreational purpose” under the FRUS,
immunity under the FRUS is abrogated by
the fact that the public also uses the land for
a purpose that is not an “outdoor recreational
purpose” or even by the fact that the public
also uses the land for an unlawful purpose.
App. A.
This Petition for Writ of Certiorari followed.

7
REASONS TO GRANT THIS PETITION
I. THE DECISION OF THE UNITED STATES
COURT OF APPEALS INCORRECTLY
DISMISSED PETITIONER’S APPEAL AT
SUMMARY JUDGMENT AND IMPROPERLY
APPLIED THE FACTS TO ESTABLISHED
FEDERAL JURISPRUDENCE.
Florida enacted the Florida Recreational Use
Statute
“to encourage persons to make land, water
areas, and park area available to the public for
outdoor recreational purposes by limiting liable
to persons using these areas…” Fla. Stat.
§ 375.251(1).
The limitation of liability only applies if the
property owner does not derive revenue from any part
of the property. Fla. Stat. § 375.251(2)(c).
Importantly, Florida’s recreational use statute does
not apply to Florida’s cities and counties. See,
Pensacola v. Stamm, 448 So. 2d 39, 41-42 (Fla. 1st DCA
1984):
[S]ection 375.251 is intended to encourage
private persons or entities to make their
property available for public recreational use
without being subject to liability for unknown
hazardous conditions. The motivation of private
persons to offer their property for recreational
use by the public free of charge is the obvious
purpose of this statute. A governmental body, on
the other hand, needs no such motivation

8
because its principal purpose for owning public
park land is to make the park available for
public use.
As previously stated, section 375.251 is
intended to encourage private persons and
entities to open their private lands for public
recreational use; it is not intended to protect
governmental entities already charged with that
responsibility.
See also, Cox v. Community Services Dep’t, 543 So. 2d
297, 298 (Fla. 5th DCA 1989) (“[§ 375.251] does not
relate to municipalities and counties.”).
Under the FTCA, § 375.251 applies to the United
States to the same extend it would apply to a private
person in Florida. 28 U.S.C. § 1346(b)(1); Kleer v.
United States, 761 F.2d 1492, 1494 (11th Cir. 1985).
The FRUS does not rid a negligent property owner
of liability when the property owner charges a fee to
the public to use the “area.” Fla. Stat. § 327.251. Under
the statute, the “area” includes “land, water, and park
areas” while “outdoor recreational purposes” includes
but is not limited to “hunting, fishing, wildlife viewing,
swimming, boating, camping, picnicking, hiking,
pleasure driving, nature study, water skiing,
motorcycling, and visiting historical, archaeological,
scenic, or scientific sites.” Fla. Stat. § 375.251(5)(a–b).
If the charge was assessed for the “area” which the
claim arose, a property owner owes a duty of care.
Abdin v. Fischer, 374 So. 2d 1379, 1380 (Fla. 1979)
(property owner’s tackle shop and boat ramp were open
to the public, and where plaintiff slipped on slime on

9
ramp, since there was commercial activity at the
nearby tackle shop the statutory protection did not
absolve liability); Kleer, at 1495 (11th Cir. 1985) (“…we
hold that the statute bars suits for injuries sustained
in areas of parks where no fee is charged and no
commercial activity takes place.).
A. The Court of Appeals incorrectly held that
Moore Lake is not an “area” where a fee
was charged as considered by FRUS.
In Abdin, the court held that where a boat ramp
was adjacent to a tackle shop, and boat ramp was open
to tackle shop customers, the boat ramp was “part of an
area” that was used for commercial purposes, and so
the FRUS did not apply. Similarly, Moore Lake was
part of an area where a fee was charged. In Goodman
v. Juniper Springs Canoe Rentals & Recreation, Inc.,
983 F. Supp. 1384 (M.D. Fla. 1997), the distance
between where the fee was assessed, and the place of
injury was just over 7 miles apart. In Goodman, the
court found that the place of injury was a part of an
area where a fee was charged. Therefore, the property
owner was held liable.
In the present case, the Respondent and Court of
Appeals suggest that the USFS did not assess a fee for
entry into the part of the Forest where Petitioner
passed. Under Goodman, this argument is without
merit. Albeit, a fee was charged to use Silver Lake.
However, analogous to the boat ramp in Abdin, Silver

10
Lake and Moore Lake are connected by road, pathways,
and is a less than one-minute walk from each other. 1
The Rainbow Group received a permit to camp and
host their gathering. Notably, people cannot camp at
Silver Lake. Silver Lake is a parking and recreation
area. If a patron wants to camp, they must travel a
miniscule distance to Moore Lake. The distance
between Silver Lake and Moore Lake is less than 1
nautical mile. Silver Lake has a Longitudinal
coordinate of 84° 24.293’ W with a Latitudinal
coordinate of 30° 24.244’ N. Moore Lake has a
Longitudinal coordinate of 84° 24.219’ W with a
Latitudinal coordinate of 30° 23.557’ N.2 According to
the National Oceanic and Atmospheric Administration,
the distance between Silver Lake and Moore Lake is
less than 1 mile. 3
1

According to the United States Department of Agriculture
website, https://www.fs.usda.gov/recarea/apalachicola/recarea/?reci
d=75238, Silver Lake is only open for “Day use only” and a “fee” is
charged for some activities: “$5.00/vehicle for day use area. There
is a separate fee to use the OHV trails.”. It is operated by the
National Forest Service in Florida and has available picnic tables,
toilets, drinking water and parking but no camping, as operational
hours are 8 a.m. to a p.m. The U.S.D.A. site specifically states that
camping is not allowed in Silver Lake: “Camping is not allowed at
Silver Lake, but restrooms are available.”

2

The distances are confirmed by the Apalachicola National Forest
Aviation Hazard Map found at https://www.fl-ficc.com/wpcontent/uploads/2019/02/ApalachicolaNF_AerialHazards_Landsc
ape_E_2019_FINAL_WITH_TABLE.pdf. Source:T:\FS\NFS\NF
inFlorida\Project\Apalach\Fire\Aviation\Document\FireAvia
tionPointTable_08162016

3

https://www.nhc.noaa.gov/gccalc.shtml

11
Equally important, the Permit for the Rainbow
Group covered “3 square miles”. 4 Since the distance to
Moore Lake and Silver Lake is less than 1 nautical
mile, the holding in Goodman means that the
properties are the same “area” and the Permit covered
activity at both Silver Lake and Moore Lake. The
Eleventh Circuit failed to correctly apply Goodman for
the following reasons:
1. A “fee” is charged for access to Silver Lake;
2. Moore Lake and Silver Lake are less than 1 mile
apart;
3. Both Moore Lake and Silver Lake are covered by
the plain language of the Permit, stating that activity
of Rainbow Family is permitted up to “3 square miles”
from Moore Lake.
The holding in Goodman means that USFS cannot
avoid liability and the Eleventh Circuit opinion
incorrectly interpreted federal law. The Court of
Appeal’s decision strays from the factual issues in the
case. The facts are clear that Moore Lake is a part of
Silver Lake. Moore Lake is the camping compliment to
Silver Lake. A reasonable inference can easily conclude

4

Following the Incident with the Rainbow Family, on March 6,
2015, the U.S. Forest Service – National Forests in Florida closed
Moore Lake camping area, stating: “Wright Lake campground and
Hickory Landing boat ramp are closed due to an ongoing
investigation into a shooting that occurred on the Apalachicola
National Forest. An area around Moore Lake is also closed to
camping.” See, https://www.facebook.com/NationalForestsinFlorida
/posts/wright-lake-campground-and-hickory-landing-boat-rampare-closed-due-to-an-ongoin/824625660907104/

12
that the fee assessed to the Rainbow Group was
intended to enable the Rainbow Group to use Silver
Lake and Moore Lake. Therefore, the lower court’s
ruling is in error as they did not make all reasonable
inferences in favor of Petitioner, as prescribed by law.
As in Goodman, the place of Mr. Hurst’s injury-(Moore
Lake)-is a part of an area where a fee was charged(Silver Lake). The Eleventh Circuit misinterpreted
Goodman, which extended liability under a factual
pattern up to a 7-miles between the injury and an area
wherein a fee is charged, against the factual issues in
Mr. Hurst’ case which show the plain language of the
Permit extended activity for “3 square miles” from
Moore Lake. “3 square miles” from Moore Lake
includes the fee area of Silver Lake, and the express
language of the Permit means liability attaches under
the holding of Goodman.
Moreover, Petitioner should be considered an
invitee rather than a member of the general public.
This removed Petitioner form the scope of § 375.251. In
Fisher v. United States, 2019 U.S. Dist. LEXIS 135997,
*4, 2019 WL 3802461 (M.D. Fla. August 13, 2019), the
court held that Petitioner was a member of the public
because the area was free and open to the public. Mr.
Hurst’s case is the opposite. First, there was a fee
assessed for access to Silver Lake and under the
express terms of the Permit, Rainbow had access to
both Silver Lake and Moore Lake which encompassed
“3 square miles”. Second, Once the permit was issued,
Moore and Silver Lake were reserved for the Rainbow
Group.

13
CONCLUSION
For the foregoing reasons, this Petition for a writ of
certiorari should be granted.
Respectfully submitted,
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(o) 407-388-1900
robertsirianni@brownstonelaw.com
Counsel for Petitioner
Dated: November 8, 2019

